No. 20-1113

 

In THE
Supreme Court of the Aunited States

AMERICAN HOSPITAL ASSOCIATION, e¢ al.,

Petitioners,
v.

XAVIER BECERRA, in his official capacity as
Secretary of Health and Human Services,

Respondent.

On Petition for a Writ of Certiorari to
the United States Court of Appeals for the
District of Columbia Circuit

BRIEF OF DIGESTIVE HEALTH PHYSICIANS
ASSOCIATION, LARGE UROLOGY GROUP
PRACTICE ASSOCIATION, AND THE
ORTHOFORUM AS AMICI CURIAE
SUPPORTING RESPONDENT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,993 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(4).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 13, 2021.

 

Colin Casey Hogan
Wilson-Epes Printiig Co., Inc.
